IN THE
SUPREME COURT OF THE UNITED STATES

LAURA MARAg Scurf
(Your Name)
vs.

NANDAN pA-ri...) Pt a.t • — RESPONDENT(S)

FLED
AUG 0 5 2021

ON PETITION FOR A WRIT OF CERTIORARI TO

OFFICE OF THE CLERK
SUPRIEi‘,1E COURT U.S.

O.C. SNIP eAC.01-r Czsurt-r or APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

EAU QA timeie geo-rr
(Your Name)

A.gtoe (-I AN LEY (6 bie,cfr pcyerty
(Address)

m(
(City, State, Zip Code)

n

(Phone Number)

QUESTIONS PRESENTED
Context: A repose fixed on March 2018— especially a self-imposed repose,
created by one Respondent solely misinterpreting federal law in a state-court in rem
matter — here, a civil version of Michigan v. Long — "confirm[ing]" facts untrue
related to 11 U.S.C., e.g. inclusion in "inventory" of 100% exempted real property, to
erroneously extend (equitably toll?) repose "a year" in faux abeyance from March
2017. Tactically, obstacles to the consequential appellate court demands for cash
payment, forbidden pre-foreclosure by MCL 211.78k(2) and post-foreclosure by 11
U.S.C, said Respondent thus blocked Petitioner's in rem objections MCL
211.78k(2)(a-f), to in turn block any claim of appeal thereafter; thus ultimately
blocking Petitioner's constitutional rights in several ways. Post-repose, second
Respondent, in a federal court, separate from the underlying bankruptcy case,
revealed the false abeyance. Both represented the same third municipal Respondent
in separate courts. All three are lawyers. All knowledgeable in the laws involved. It
was reframed and precluded federal jurisdiction unconstitutionally rooted in a quid
pro quo created by the confirming one, done on behalf of the same third one. The
latter third one had no standing in federal court August 7, 2017, to reveal the first
one's initial independent decision to allegedly remove the parcel, March 22, 2017.
Yet, the federal court also relied upon it. This doubly harmed Petitioner in both
courts by surprise, August 7, 2017.
The QUESTIONS PRESENTED are therefore:
Does enjoining both courts in contradictory reliance on faux removal of a
100% exempt parcel (11 U.S.C.) revested in Petitioner before removal from the
state's in rem petition, forever seal the fate, post-repose, of all Respondents'
inactions and actions forever thereafter, as being absolutely moot; unlabeled as
either a "tax case" or a "bankruptcy case" by exemption, followed by repose set in
state law, to give Petitioner federal subject-matter jurisdiction in addition to what
she had, since Monroe v. Pape (1961), August 29, 2019?
Does the Michigan v. Long misuse of federal law by Respondents Yun, on
behalf of Sabree, creating faux removal, revealed by Kilpatrick, give this Court a
perfect vehicle to extend Michigan v. Long's application to civil matters that hoard
all excess profit which a trustee liquidation would make available to Debtor and
other creditors, such that Sabree "walked in the shoes" of the trustee in a state
court, which Kilpatrick, in January 2017, told Petitioner "survive the bankruptcy";
declared August 7, 2017 it did not; Sabree reversed it, invoking by preemption in
2019, Knick v. Township of Scott, Pennsylvania, which cited Monroe v. Pape (1961)?

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
reAll parties do not appear in the caption of the case on the cover page. A list of
ct of this
all parties to the proceeding in the court whose judgment is the subje
petition is as follows:

NAN DAN. ?AM.; ENTELPRtSmi(,- REM- M7,4TE.1-1-C-.3
. 1<( L.PA-rkt c-e.). K . A NG- -).
--12,i
yA) 11-1 IA YOM) g. •
CITY or i-IAM TRAMcK- J5-AICIZ• • SA6R.c"--E)
CoUnrry or WAYN i WAYAI6 coUxl-ry LAND 8A•NIZ-eof-eozA-noM

RELATED CASES

(iN com-roci*

or leGitis
t ED

- fc‘i f CACE:
cA55 IS mFril4E- A- A "15A-1414-PuP
Nott A "TAX CASE AAA) IS -114-eker-oRE twoePENDAArt
-1-1 ml f te.
PRE - Ref 055 CAS Es . 1-10wEveNei 1 sA

-n.4 is

P- o 1 L coNs -rrrurA) &/A/
vel)
V-C
te
EAt
RG
T
DeB
P os C
-)vt PT6-79 8 Y
; Pke-6
eLftri
On/A
11
TO
ri
scoN
)
Nei%
h,)0 of Seal, 13frolsylvaolta
'fl•-i- Is cot)P--r's Knick,
;
rylote. new e airni Le-set. etei,s
2312-9111
8//11/1
4.
s
j
lo
c
Q
cco
n
phb
-ero
pre
t
66t.ic
a.eut. WAAIDA-Ai
-r.4v-r")
h..
Ry
OF c-t)Jor Pas 7 .
e ATEL A141 ActroAAr I,N otz. ottr
-1-16-6
7
PA
6E3
CA-0'1
-rs
.A
(.el
"
-r
—12 0,S A-11.6 Na
-u,--isoicroivoe•
ANO MOL1 5Pa-ctftcAttLY TO T14e- a
A 104
cooair). c4H-1 G70 AM Ar SSET I S Reves -mo ex/
ANKe01-roy
HplutgrrOK) EYeVotilirlop.1 IT IS No Lonl&E)2 -. A-B
ter SAME PkoPeg:r y
l4-h
7
vfq
v•M
•
alz
Arrtr
CASC el
Pe-r1V7 OA) yr Is ND
oLo
-ECL
Foka
TAX
5
Rofriov6V f-tz-oto 1-4
Lank of A -rAy NIA-Trot •

TABLE OF CONTENTS

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
vg

STATEMENT OF THE CASE

(yip

4

Ky

6
13

REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A —

17.454-ff-64- CoatA, Twat

APPENDIX B

briteir

APPENDIX C

Order' 17‘,

APPENDIX D — C rd fir
APPENDIX E

APPENDIX F

cleacet- Mareill Sia-024

Paler 6--PP"-Le--8(

;) C004-

by -14) Cour I-

K t)1"4-12. v Tawo sh ;Jo

Fe- 1 2 / -I-0

b

j

I

•PC00(1-1
10+'-e

(0+

IL -

0A-n ci-e,

Fgie & 0-re-

GLiCAAsce-et.

So.

err-cro
0

0

gilt/12.0r , ilestrini)

"Wo-nScrt'p ell 3 64 2-0 /

(31914' Afe-8nCtf6eA

o-n)

-1t, 5 0

0A-re IN Pi Yr kAcT coo

crunk.
-441-01
APPo\PD1)(G-

P

Cc-at (1( ;9

On 0al-er

INDEX OF AUTHORITIES
Note: most of the authorities are first citied in the Jurisdictional Statement because

this

Freed v. Thomas, U.S. Sixth Circuit Case No. 21-cv-1288; November 4, 2020, after
appellant, Freed, prevailed on appeal (the same day as Order September 30, 2020
was issued in Third Circuit in this instant matter, as to subject-matter jurisdiction
being federal; denied a motion by appellee, Thomas, for an en Banc rehearing (Case
No. 18-2312). This case was held in abeyance awaiting the outcome of both Knick v.
Township of Scott, initially, and then "Rafael] If in this Court, decided two weeks
after Scott's Order June 29, 2020 was decided using 'Rafaeli 1' in federal court. See
1'

100%
assets

11

Homestead

and

other

in-or-out-of

estate

Johnson v. Michigan Treasury, Case No. 99-1730, 2000 WL 571916; page 12, Anderson, this
instant cases' Answer's Exhibit 3, U.S. E.D. Michigan, Case No. 10-13708 (2011),
(P.XML111. II

r - ' --Jr ----:-.1- •-•,,1-4-... ac

If elfecting Church" In re: Petition by Treasurer of Wayne County for Foreclosure, Michigan
Supreme Court, Case No. 129341 (2007), 478 Mich. 1 (Mich. 2007); 732 N.W.2d
p
458
in re: Pontes [Tax Injunction Act's caveat; forum shopping (see
Antes"Omne)
Rafaeli LLC (a/k/a/ Ilafaeli II)
Rental Property Owners Association of Kent County 3830 v. Kent County Treasurer,
Michigan Court ofAppeals, Case No. 314256 & 319733 (2014) — the same year
MCL
600.5714 was amended.
/Rudd v. Township of Norton Shores, Michigan, U.S. Sixth Circuit, 2020, Case No. 19-cv- I 22
[Unconstitutional Condition Doctrine
—yu
1226

I San Remo "preclusion trap" (see Knick v. Township of Scott, Pennsylvania)
Taylor v. County of Saginaw, et al, Michigan, Sixth Circuit, Case No. 17-2126, (2019)

1/ Thomas v. State of Tennessee, U.S. District Court, Case No. 19-cv-2427...
L

,J ,

.15;17;21;22;24;26;28;31;35;36;39;42;44;45;46;50;51;52;54;55;57;58;60;61;63;64;65;66

3

,,z7(5

s, 7Y2

A60,fris
Alf

61)

Ay

q/ e-j-/—e- 449

407

42 U.S.C. § 1983.
U.S.C.

.

'P

/ Michigan Compiled Laws:
211.78 et seq
211. 78(8)
• no possession
211.78k(2)(a-f) (objections).
/211.78k(6) to either (7), (9)(f), (10).
rv-Nrt..;

(7211 .78k(10)

••

/211.78m

4

0.2923 Odams v. Adams).

nstitutions:
U.S. Constitution
Bil 1

of

Rights

7Fourth Amendment
seizure" and see Chalk article .
.) Fourteenth.

/Fifth Amendment.

6PS

/Fourteenth Amendment.
Cordrack
/Article X, § 10, Clause 1.5 Gernmeree Clause.
.,1

h

V

av ern in41--.4

,

Artic1J

;,;6;
•

• •

-

11 U.S.C. "Bankruptcy Code" with Michigan's 100% Homestead Exemption, etc
11 U.S.C. § 522(b)(2).
7

•

P

;,5S;64
[xviil

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
Vis unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

A

13

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ Its unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the
court
appears at Appendix
to the petition and is
] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

[V(For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was March 8) alba 1 2,
MerriA tctler ca4s42, wai f etoJed •
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
, and a copy of the
order denying rehearing appears at Appendix

C

[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. §1254(1).

-i1 ; Cour ,- Is
it

Order- AppedOe

ri

iVeenzt

D <Tuily 1i) .2D-2-

[ ] For cases from state courts:
The date on which the highest state court decided my ease was
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. §1257(a).

1
JURISDICTIONAL SUMMARY
The Petition of Certiorari herein is being timely filed based on two Orders of
this Court:
March 19, 2020 Order which allowed 150 days from the order appealed in the
circuit court; Sixth Circuit in this instant matter;

Ii&

e

July 19, 2021 Order which does not change the 150-day deadline as to the
instant case, owing in part that it was decided March 8, 2021 and that 150
days allowed falls about a month before the September 1, 2021 deadline that
was set in the latest Order.

AcepeesetiV tr)

The decision March 8, 2021 gave a 30-day deadline that was impossible to
meet and was futile at that, therefore, the April Order was to close the case for
lack of that fee's payment. The district court Order 100 and Judgment 101 was
decided June 2020, and dismissed without prejudice.
One procedural anomaly that is relevant here is that Knick v. Township of
Scott preempted during the Scott's state court of appeals case. The during the
ten day period between the last docketed item in that case August 19, 2019,
which refused to re-open that case; and the invasion August 29, 2019 which
prompted the Complaint 19-cv-12676, filed September 11. 2019, herein, there
was no need to apply to the Michigan Supreme Court by application, because of
the lockbox and obstruction of justice happened during the Sixth Circuit Case
19-1290 pending at that time. The timing of that preemption is addressed in

==.

2

another Sixth Circuit case, Thomas v. Tennessee as to preemption of Knick in
particular to retroactive applicability as detailed herein.
While this is not a "tax case" nor a "bankruptcy case" two federal contracts
are the controlling law in the matter. As such, the procedural is that those
defendants in the Complaint are in one way or another involved in one or both
federal contracts and the latter was tortious interference with the former in a
continuum wrong which conflated fees as being taxes which led to the March 22,
2017 objections on the basis of fraud. Because the federal funding and national
goals affect everyone in Michigan and everyone in the U.S.A. directly or
indirectly, this case is of importance to how the taking is a "public purpose" and
when rights are in limbo between July and August 29, 2019 which laws are
those that are federal by the Intergovernmental Agreement rooted in the federal
Contract Clause. The federal jurisdiction in the federal district court was not
related to either taxes not related to bankruptcy. It was the exceptions that
made this instant matter federal subject-matter jurisdiction.

CONSTITUTIONAL AND STATUTORY

crite,.) /5-1 nure de/i-ct4 (i-v 2-0— 590 1

also

‘6311i
k lak tr. 7swo s lid
6144-on 54,4i-azi,le r c4i c•-•

Penn sy /v644, ranw- Hum-)
h
r 1„,(44, Antzactim4.44-- vib(ct
<=
pturHadivi

M <<,1
Cz14-e-

tobt&I-e-d- cut-

nelkadfly4e, OtH crt le*3 444:1

iste4d-

o.nce

y/ c -c)

/42,4 _ 0 4.

-44-te, Corn6);,,,
in tobith

PROVISIONS INVOLVED

t. 1h9- re-Pose-

19nr-er4y

Mithlyn

64 Ceripilezt 1_44,

riLY A-01)

i 0111.7g k CO)

TiAdve, fs 9_01

111.15 f').

Ls.

or ,;)
MA ndivivry. X4-

nod-

exkirlitir
AL
on
AAA
keiyaYvel• 411-f2-1" 5-eurYLA
,) fx, tYtai
ixo
ree
49
14#
lty
da
M-,(514 Os"'13 e-? .r
ea *111,ey
rip
'
or
1g
1X
by Mg,r611
occ,t,t(
ayl
pose4..11
re
k
1l
A
ve
Gi
o•
--11
-4
-r-o-evr 4-km- eryw
)
4
r
-e
ctr
S
1
/v..
190-mea /Ai
ficli)(
) eA-L SQL Appe
az
-to
k5
-e(
A-zer-(2-

Titt)-c—
4--ctleet

-4f)i

e-

17,

)-6
MArrie
/
)(1
Yt
iem
ov
sp
Re
/
6L
el
leD,‘-C. Coke- cA
cd-Jov.e 41-ti Si--etkae,
eos
rep
Bey oiv
i„,s
/8.3 da;
.0
.C
r)04.- Lea-rikers
1)±
ixel-1204-taz
)1A
.k,
44
.
."uta
ca
be
couas fsveeveti
tkO
4-i
rn
ce
L'Pe
-el
5-kties
°-"t6-6'irS (Ire- 0-441,0re

.

——

STATEMENT OF THE CASE
Since a self-imposed repose supersedes any other basis for any actions by
Defendant-Appellees, in or out of any court, it is important to begin with that first.
The self-imposed repose was established by Defendant-Appellant Yun on behalf of
Defendant-Appellant Sabree. Both are lawyers that are experienced in the
particular subject matter in which the repose was set for "a year" after the March
22, 2017. To accomplish that deadline, Yun had two choices: the statute of
limitations, June 15, 2016, which could be put in abeyance only by MCL 211.78k(4)
for a year , for example in cases like bankruptcy where there was an established
"financial hardship," or its only alternate — if removed from the earlier petition —
June 15, 2017. In order to meet the repose to foreclose, she had to choose one
petition or the other. Not both. Not neither. Not skipping a year, etc. While the
repose was set, the question remained as to whether the reliance on that repose was
based on the removal from the former or the addition to the latter.
Auskt1st 7, 2017 Defendant-Appellee, credentialed bankruptcy lawyer, when
Sabree was not captioned in the federal bankruptcy adversary proceeding,
nevertheless revealed that the subject parcel never left the first petition as Yun had
said. The one lawyer for Sabree contradicted the state lawyer. The result was that
both courts relied on each respective lawyer that which was not true and too late to
remedy it in either court. That reliance harmed Petititioner. The public auction
Kilpatrick mentioned for September or October was canceled. Nothing happened by
the repose deadline in March, except for one thing that would undo all that. Instead
of the required foreclosure, a new forfeiture was made for the 2017 taxes that were
not allowed under the law as they should have been done a year earlier. Having
skipped that prior petition the 2018 taxes were doubled onto the next petition on
June 14, 2017. The very next day, the associate for Kilpatrick did what was done
back in August. He not only filed in the same wrong adversary again but he
contradicted Kilpatrick who contradicted Yun. A double negative. That is proof
positive of the fraud on the courts to that point. The very day before, unmentioned
in the brief by the associate lawyer from Kilpatrick's firm was no mention of the
petition filed the day before that would lead to the redundant 2019 foreclosure
beyond repose and also having skipped 2018.
During the appeal to the 2019 foreclosure, Knick preempted. Even though the
repose debarred all claims from the Defendant-Appellees, the additional federal
remedy on the reversal that was analogized in Knick to a bank robber putting the
I
loot back was similar to what Yun after Kilpatrick realized that the public auction
would have to be canceled only to revive it in 2018 hoping to get paid by the city in

the adversary when there was no legal basis to get paid by Applicant due to the
repose. Applicant needed to do nothing at the moment Knick preempted except
request reconsideration in the appeal, which she did, or to ask to re-open the case,
which she didibecause in addition to Knick there was explicit mutual comity in
MCL 211.78k(9)(f) that was available to overcome k(7) as to demands for cash) such
as the Sixth Circuit Order from which this Petition is doing the same.
During what could have been an undisturbed number of days to file and
application for leave to appeal the state
court decision, was interrupted two
ways. Only ten days after the last docketed item in the state court of appeals case
on August 19, 2019 and the invasion by Defendant-Appellees)Patel and ERE)was
also a lockbox, no notice whatsoever, etc. Meanwhile, Kilpatrick, still without his
client Sabree having
standing, filed a denied motion to dismiss when only the
city remained in the Sixth Circuit 19-1290) pending appeal) and when only
Defendant-Appellee County of Wayne was in the adversary proceeding but on
claims related to tortious interference with the 2008 federal CDBG deferred
mortgage that did not require money) but only required occupancy and the 100%
Primary Residency Exemption. Since ERE and Patel had not recorded the deed,
since Hamtramck and its city manager Angerer were merely a "conduit" rather than
an actual purchaseriand since Sabree as treasurer) with the city)relinquished all
alleged rights notwithstanding the repose, there was no entitled owner on August
29, 2019. However, Petitioner retained her 100% Homestead Exemption from the
bankruptcy that was only the Michigan exemption prior to that bankruptcy, and
that equity plus the CDBG requirement to occupy the subject parceli not only gave
Scott rights to due process to dispossess her, of it)through a court of law)but also
)
that doing so would be futile,,because of the repose set by Yun.
During pending federal appeal 19-1290 when the invasion happened the
additional federal NSP contract that effectively was the only nexus between the city
who had relinquished its time-barred rights made Patel and ERE "state actors' by
that very contract) and its terms which') not only required 90 days to establish
abandonment by NSP regulations)but also heightened notice in a specific manner.
The city knew it was occupied. It, after all, had three ways to establish it. The first
was the CDBG contract. The second was the 19-1290 litigation)which was pending
to know that it was occupied. The third was the same one in chambers in June 2018)
where the impossible "deal" was proposed by the bankruptcy judge after mediation
failed as a matter of law) as to the repose; that the city would pay the county
treasurer)and Petitioner would keep her home. The repose made that unnecessary

7

for Scott. It made it a last-ditch effort to both get paid and to end the litigation, by
.)
ending the occupancy itself.
Since there was an ongoing Intergovernmental-Agreement — a standing
agreement — to make no prod by statute, the 100% Homestead Exemption) and its
related equity? were initially exploited by Yun in Michigan v. Long fashion. But,
then it was ignored. One thing about this case7that is important to understand, is
that two major things were there all along;and did not depend on Knick1or other
recent cases that favor Scott, ignored by the Sixth Circuit. The first was Monroe v.
Pape (1961) cited in Knick, that provides subject-matter jurisdiction on the invasion
post-repose. And the other was that the 100% Homestead Exemption was not
mentioned in the other cases. Somehow it slipped through the cracks) that
established equity that exists by statute)and enhanced by bankruptcy's choice of
either state or federal exemptions — debtor's choice — does not make that equity a
"bankruptcy" case nor a "tax" case for its existence. Or)for its restatement. So when
Yun did what she did, she misstated not only federal law as her sole reason to deny
substantive due process; but) she also did so thinking that the run-of-the-mill
bankruptcy assumptions about the estate)or what she called "inventory; were that
the exemption was of no consequence to the state court action's being able to
entertain and decide on objections. That Yun "confirm[ed]" only what she wanted
the court to know °but not what was relevant to the decision: that the asset's
exemption made it not part of the bankruptcyibutithat the 100% Homestead
Exemption ensured that if the foreclosure happened) that equity was retained by
Scott; and thus)that)plus the objections) could lead to an appeal) by either the
treasurer) or ) by Scott which would have run head-on into the MCL 211.78k(9)(f)
protections) as to the redemption demanded to appeal invoking the State of
Unconstitutional Condition, tantamount to an admission that prejudices the party.
This is why payment was forbidden in MCL 211.78k(2): because payment waives
the right to objectpecause it removed the basis for the objection.
Since a civil rights violation occurred)independently of any prior action9ut)
after the repose, the Complaint was filed September 11, 2019. The U.S. Marshal's
were ordered to serve all the Defendants. The separated envelopes caused
problem) in terms of serving all of them at the same time. Default was addressa (1,1
this matters as it was addressed when Hamtramck defaulted in the adversary
proceeding)in 2017. Yet, the overarching repose is controlling) as to all Defendants.
Specifically, as to the independent actions of ERE and Patel, one need look no
farther. than to the Hammoud case both were in half a decade earlier)to see a
growing problem) in terms of these invasions) at the behest of cities) and) in this

particular case with a desire to get revenge)such as was shown in Rudd. Both Rudd
and Scott separately addressed the quid pro quo aspect of pay-to-play tactics.)where
indigent must pay to appeal uch as the case here. If Scott had money, that would
not have happened. The cart-before-the-horse reasoning in the Sixth Circuit Order
was that despite Scott being granted a fee waiver while she was still working for the
duration of the entire(almost year-long cas)19-cv-12676jand despite that the case
r
was dismissed without prejudice to not suggest the case was without merit; and to
suggest that all the authorities that followed within two weeks of that orderiand a
few months later which established the very subject-matter needed as a non-tax
case; and the two federal contracts that superseded all state law; and the
bankruptcy being misused by Yun in Mith • v. tong fashion) which even give this
Court jurisdiction to hear such cases — all that — was construed to reduce Scott to a
vexatious bad-faith litigator that has no civil rights whatsoever, etc. Somehov5 that
even money would have been futile. What is futile)is squarely anchored to August
29, 2019. That single day has no legal rights for any of the Defendants. The
responsibilities)however are in writing and are inescapable as anything less that
)
obstruction of justice)to end valid litgation. Bankruptcy is not "litigation" and as
shown by Sabree it had no bearing on what they ultimately decided) even after the
repose. None of them filed a timely proof of claim. Sabree's would have been perjury
of they did so. None of the creditors objected to the exemptions. The entire estate
was virtually exemptecl;and what was not exempted wal abandoned)bx the trustee
)
and the creditors alike. So this is not a bankruptcy case. This is not a tax case. By
August 29, 2019, the Defendants were paid. The City was paid. The City owed
Scott. Scott was not paid by the City nor by the County. But, the
yet
another violation of the permanent discharge injunctionjin asking me to pay for the
civil rights violation. That is the state of unconstitutional conditions once again
rearing its ugly head. (5-20- guild v e-;4j
Norhir5hcre4.i/4 "
-441- my Str--41-19)Y)
This Court holds that the Latin maxim shows why that is not the cases
, this Court can stop a trend of abuse against those similarly situated that
during COVID-19 are less financial able to pay than beforehandynd that will soon
be homeless)if this Hammoud-like conduct of conspiring and interfering continues)
as it has done and continues to do.
LEGISLATIVE TAKINGS HISTORY
1. Prior to Knick, the Michigan, and other states too, considered reversal of the
wrong sufficient to erase thec`taking. Yun used MCL 211.78k(9)(f) after
Kilpatrick revealed that a public auction was schedulecto avoid the circuit

court judge who — like Petitioner — relied on "a year" and the auction was
mid-way that year.
Prior to Knick, and later Rafael'; LLC, decided only two weeIs after the
c
Order in the federal district court, the county treasurer's:X.81Na if there
was no foreclosure there was no taking (See Rosencroft).
After Rafael', LLC premised on Knick and rooted in Monroe v. Pape (1961)
citied in Knick, tpRE and Patel use the excess profit from the sale to deny
that there was a taking.
The 100% Homestead Exemption is equity. It is statutorily available to the
citizen of a state. One Ohio case shows how it works. Bankruptcy allows a
larger exemption if the Debtor chooses itjbut it does not exempt the property
from any state exemption in a state court matter. Being exempt, means that
the parcel is revested in the property owner. So that equity being taken is not
only a violation of federal lawibut)also in the case of Michigan incorporated
into MCL 211.78k(9)(f)) such that it addresses the redemption itself as a
violation. Under no circumstances was the Petitioner without equity and her
objections were preserved notonly by the fact that Yun admitted that ,hey
were filed and writte9 after the "right to sue" was schedulec_band`survived the
bankruptcy discharge May 30, 2017] just two weeks before the deadline to fiel
the 2017 petition on June 15, 2017.
Another aspect of how the law has evolved is to Thomas v. Tennessee and the
timing of Knick. Since Knick preempted the state court matter and that state
court would not even use their own state laws to address the
and that
-0
same pre-bankruptcy debt was included all the way to theemail
e
that ERE's
and Patel's same counsel in Hammond and hereit must be noticed that the
repose on that same never-ending debt, its non-tax expired liens by statute
and so forth3were a string of continuous" takings) that culminated in an
admitted invasion, a lockbox and a federal contract between the city and the
ERE3to spell out exactly what was supposed to happen; to reveal what
independent actions ERE and Patel tool9in violation of it.
If the Constitutional due process is denied by the courts solely based on the
unrecorded deed, then by that same token, ERE's unrecorded deed is in peril,
not only by its arguments in Hammond that mimic what its exhibit with
Anderson said about Johnson v. Michigan Treasury on that legal point; butt
also on the emphatic use of Anderson)to drive home the point as holding here.
Are ERE's void-of-recorded-deed rights more than Johnson's or Hammond
plaintiffs rights to notice7and due process to save their property? Does this
Court hold that a person in a situation where the deed is not yet recorded)but
the "conduit" deed has already relinquished its title as a mere placeholder is

)O

more than the right of Johnson or Hammoud plaintiffs unrecorded deeds?
Seems that argument is unavailing)to the extent that the NSP commanded
the deed be recorded and the 90-day regulationjto establish abandonment
must be due diligence) and nq happenstanc9 or assumed. The national goals
))
are not to do otherwise. That 90 days would have allowed for the deed to be
recorded)and that in turn)would have been "constructive notice; at minimum.
Then)an action such as Adams v. Adamsfould commence to obtain possession
in the first instance) if not for the repose. The strength of ERE's title had a
broken chain link — the repose in skipping a year — and the alleged defect in
the Petitioner's title would not have been the standard therein usecl)to first
establish tit19 and then action for possessio9in the first instance.
ERE continued to collaterally attack the reposyven after it acknowledged it
existed. It stated that the 2017 foreclosure was not "halted" and therefore it
happened. But, it also incorporated by reference and agreed with the
Michigan V. Long application of the "inventory; as a reason block the
objection that were written and filed)and orally summarize to be told, "did
you hear Ms. Yun?' as if that was the correct thing to do, M arc4i 2 1 2.0) 7
The legislative history of takings which begins in this matter with Michigan
v. Longiby Yun)and end with a search and seizure by ERE and Patel, Fliet
this overall a Monroe v. Pape (1961) Fourth/Fifth Takings case (what Bata
called "an advanced takings cal because) since August 29, 2019 they took
everything that "survived" the bankruptcy
}and was exempted) thus) owing
Scott all that.) plus more. There is no separation) when there is a bad-faith
continuum of taking, except that ERE acted independently of its
predecessors) to overcome the jurisdictional barriers to the federal court.
Certainly, the details of this law are detailed in the Opposition to the Report
& Recommendation as well as the magistrate judge's ordered Sur-Reply)
which provides much detail) that was entirely ignored. Lost on the district
court was that ERE and Patel were "state actors; August 29, 2019. The NSP
federal contract makes that true. The NSP was touted as justification for the
actions it took'but
it was not just property,ihere was the essence of the "fresh
)
start" and the intangible "intrusion upon seclusion; as well as Scott being a
pro se opposing counsel.) such that the invasion had privileged information
and evidence that had there been a trial — or even a single hearing for that
matter — that evidence may have been used to get a summary judgment. It is
gone. They took that/ too. Layers and layers of reasons why) not only these
Defendants should not have acted;not only because since Hammoud) they
knew what was supposed to happen under the law' bu also because they
have put all of it in writing and admitted to it) such that there is merit to

II

those actions post-repose. In other words, the repose removes much of what
needs to be stated otherwise. All the Applicant in this matter had to do is to
address that repose) and that permanent bar addressed the relief thereafter
as independent of any action prior to it in any court for any reason. The
procedural posture) herein) is one of post-repose claims) that due to Knicks
preemptior) and the same debt in the post-repose as pre-repose)is proof rather
than res judicata. In other words, the consequence of post-repose use of prerepose debt is the very reason the 2019 foreclosure was void)before Knick was
even decided. Defendants only link to the past is not a right at all. It is a
time-barred claim)that was never valid to begin with.
This Court need not delve into the pre-reposerxcept to the extent that the
same debt was in the 2019 actions that ERE wanted Scott to pay
) and that it
was also owing the 100% Exemption on the entirety of Scott's exempt and
discharged estate.)to which it should have stopped from continuing to so once
the Complaint was filed. Instead) nearly nine months of In CLekione 044103
happenedjand that added to the claims already there. That is why the relief
was unspecified. It was because the continuing wrong accrued from August
29, 2019)to now. Emboldened by inaction or erroneous decisions)such as
.)
Hammoud, given Freed and Rudd, the totality of the civil rights violations is
not just one Constitutional Amendment. They are not mutually exclusive
either. They can happen at one timejat one place.
For perspective, see how the Sixth Circuit had no problem with Taylor v.
Saginaw in a public place as a Fourth Amendment violation for having put
chalk on tires. This may be a valid Fourth Amendment)violation5but)is 'suite
what Monroe v. Pape (1961 is) to this matter of August 29, 2019?

REASONS FOR GRANTING THE PETITION
Because of the repose, this Petition is not "fact-bound" as it would otherwise
be (e.g. 20-5901). Quite the opposite. The repose specifically controls here. It
removes all the "facts" which would otherwise overburden's any petitioner's
justification for a grant of the petition to nationwide applicability of Questions
Presented. Repose necessarily bundles the post-repose actions by Respondents into
one basket of moot claims, for which there is no court that will offer relief. Or, at
least that is what was supposed to have happened.
This is why the Petition should be granted, primarily. That subject-matter
jurisdiction exists and that is neither "tax case" no more than it is a "bankruptcy
case" as Respondents asserted it was. The Order appealed is discussed elsewhere to
those particulars.
In addition to making the pre-repose "facts" less important, while
simultaneously elevating applicable and controlling law, relevant here, it also
involves two federal contracts and federal funds as well. That is not a state concern.
That is, except to the extent it could cause a loss of federal funds to the entire state
and cost state and federal taxpayers in settlements such as the $571,000 Beal LLC
v. Hamtramck, for the mistakes of a city Respondent, in that case, was reported as
one of the largest settlements in the Michigan Senate Report that had ever been
paid to avoid the federal funds being blocked due to not meeting national goals
regarding its funding. The state taxpayers footed the bill for the settlement.
Respondent ERE via Patel paid the $571,000 to pick up where Beal, LLC left off
and the matching funds were again gained by the city from the federal government
all over again. There is a statewide and nationwide interplay to this case and others
before it, Such as Hammoud suing these same federal NSP contracts for no "public
purpose" whatsoever other than to violate civil rights and deprive exemption equity
as well. Intergovernmental Agreements — effectively standing agreements are
misused in not vetting those from a Hammoud scandal for instance from future
bidding such that the cycle repeats itself unabated over the years.
Unlike other cases, the 100% Exemptions are not found in but a few cases
federally, such as In re: Pontes (see Sur-Reply citing that case in the district court
case 19-cv-12676), to which that was misconstrued to mean that the Complaint was
seeking "bankruptcy case" relief, when that was not the point of the citation. It was
in a different circuit than this one. But, removing the "tax case" label is a separate
issue from an exemption legally revesting Petitioner only to be exploited for same.

13

Nor was it any more of a "tax case" than Freed v. Thomas held once the tax
collection ended in repose years before the civil rights case was filed. The repose
controls. Nothing that happened in 2019 — or even 2018 for that matter — was
lawful beyond repose. Nothing.
So the Order appealed is typical of what Petitioner has seen researching this
matter over the years. No one actually reads the submissions such that they are
mischaracterized. Even in 20-5901, the opinion from the Sixth Circuit called the
trial September 20, 2018 that Petitioner won against Hamtramck that led to 191290, a "evidentiary hearing" to diminish its being an actual trial; one wherein the
witness for the city was put under oath, and the law and evidence were presented in
favor of Petitioner.
This is a pattern. It happened in Footnote 1 of the district court order R. 100
as well. When this continues to happen, that facts do not matter, it results in valid
claims being undecided such as is the case here based on money alone when that is
not applicable in this case.
Similar to the equitable nature used in Pontes, Ohio state courts the
homestead exemption is used as it should be used. One case in particular, was
Home Again v. Garrett where the Latin maxim was applied and it captures the
essence of all that is in this Petition and the case in general: that the law does not
require a vain thing be done. That Latin maxim is not to say that Petitioner's
meritorious claims dismissed without prejudice simply because they were
mislabeled as either a "tax case" or a "bankruptcy case" when not that. Completely
avoided in the Order appealed and the order below that was the invasion and the
federal contracts and how that is a federal claim not related to anything prior. No
mention of it. Instead, it was cast as some attack on the foreclosure, when that was
not what the invasion was.
The repose controls. It cannot be equitably tolled to 2019 from 2013. It cannot
be made into a "vain thing" for Petitioner, what was in reality a "vain thing" no one
required Respondents to do in vain. Petitioner's reaction to the non-requirement of
Respondents vain endeavors is not a mirror on Petitioner's rights taken unlawfully.
Recent petitions for certiorari in this Court discuss the various circuit
applications in the context of bankruptcy. But, here, that is not significant; because
bankruptcy only adds to state law homestead exemptions. It does not diminish
them. Other authorities address timing differences but mostly in Chapter 13
bankruptcies which are converted to Chapter 7 bankruptcies. Meaning that
beginning as a Chapter 7 is what puts the Debtor in peril where exemptions are

concerned because the revesting happens immediately and during the automatic
stay which gives mixes results, depending on how the state court lawyers choose to
exploit it for profit or to block appeal. Sequence matters.
If exemptions exist at all, they serve to revest the parcel immediately in the
Debtor, so that state court matters, can be addressed and resolved quickly — an
objective of Congress is to add speed to the process — not to avoid state court
matters by having exempted the property. One distinction here is how Chapter 7
bankruptcy helps a Debtor in a way that other chapters of the Bankruptcy Code (11
U.S.C. that Yun solely used on March 22, 2017) do not. In making it more like how
Ohio and other states equitable apply foreclosure discretion, to dissuade tax
foreclosure, rather than exploit it for profit. In other words, this case examines
vulnerability to exploitation of the exemption when used as it was intended, to move
matters along for all concerned equitably but not equitably tolled in fraud on the
courts and the Debtor alike
After a notice to the creditors, after the exemptions are chosen by the Debtor,
the trustee issues a notice that there are "no assets" to be distributed to the
creditors through liquidation, due to exemptions. Once freed, those assets from the
estate to be revested, as if the bankruptcy never happened. But, with the knowledge
that if the "honest debtor" in their "fresh start" engages in state court objections,
knowing that liquidation will retain as much equity as possible (not just what the
state offered outside bankruptcy), it serves to dissuade the creditor from harming
itself by executing a futile effort.
The treasurer, previously was allowed to keep the "windfall" that the
exemption would eat up. So without enduring objections, risking a possible appeal
that would run into the automatic stay, for any cash demands of the Debtor
personally, it has no incentive to foreclose immediately.
Once free from the estate, with an appeal blocked, however, there is no Due
Process. The repose ends all that. There is nothing more needed to do in state court,
nor bankruptcy court. This Petition, if granted, would not only clarify the proper use
of the exemptions, as if there was no bankruptcy in some cases; because the state
exemption already existed prior to the bankruptcy. Also, that the only benefit is
that the automatic stay and eventually the permanent discharge injunction prevent
demands for cash from the Debtor, personally. Even then, the timely foreclosure
would resolve that, during the temporary rather than the permanent one. So
prolonging the foreclosure past the repose only adds claims to an already dead-onarrival claim. It was debarred in 2019, in this case, from ever happening.

16-

Yet, it happened. Perhaps, luckily, it happened when Knick could preempt it,
and resolve the reversal of the one in a chain of many takings. Luckier still, ten
days after that preempted case had its last submission, August 19, 2019, the
invasion enjoined Monroe v. Pape (1961) cited in Knick as extra civil rights subjectmatter jurisdiction, to what already was available ten days earlier.
Timing is everything. Thomas v. Tennessee shows how the Sixth Circuit and
others like it, in the wake of Knick, are using the timing of Knick, to reach back; or,
to move forward, on claims differently. In this case the reaching back is why the
repose itself in this case is in both Questions Presented. Otherwise, the repose
would only be significant against the August 29, 2019 events, because the prior
taking would have not included, in 2019, what was supposed to end in 2017.
Another reason to grant the Petition is to caution the clever lawyers who
know the law that such actions, in and out of court, are not unnoticed. They are
changing tactics in Michigan after MCL 211.78t responded to the decision two
weeks after the district court order (R. 100) in this matter, dubbed "Rafaeli II' in
the Freed v. Thomas case, in this Circuit. Effectively, it distinguishes Petitioner and
others similarly situated, who by federal contract and statute are "no profit" and
therefore not publicly auctioned — as if that makes the 100% Homestead Equity
disappear. It is irrelevant to the notion that even if a foreclosure happens, or
whether there is profit there is or no profit; there is that lingering equity that is
independent of the sale profits, which helps those who have 100%. Rafaeli, LLC had
0%. The case law therefore is absent mentions of this exemption in part because of
tactics described herein. The district court opinion (R. 100) erroneously relied on
federal "Rafael'. I," which cases like Freed v. Thomas, supersede for those types of
monetary-only relief cases.
The Sixth Circuit Order, at issue here cited what is known as "Perfecting
Church" Footnote 10 in particular is relevant here. Yet, not in the way it intended it
to be relevant, in district court order R.100 because the repose makes that relief
unnecessary. It is now a federal matter post-repose.
The first reason is that in that case it anchored restoration of title cases to
those who did not receive any notice whatsoever, just as Rafaeli II did. But, the
difference is that this Petition falls through the cracks of both cases.
This Petition is an example of getting to the hearing and not being heard and
decided; wherein the actual foreclosure is happening in secret from both the court
and Petitioner, until later revealed it never left the petition. Reversal is perfectly
suited to Knick, in particular, as federal relief is neither just restoration of the

property, and since the possession was retained since 1981 there was no reason for
any possession action on Petitioner's part; money will not suffice either.
One example of main defense used by Respondents in the past, and those like
them, is that someone like the Petitioner attended the hearing, as sufficient to
comply with the Constitutional whether or not they wasted their time for not
getting the decision on the objections they sought. It is not just "just compensation"
that will fix that fraud. Only the transcripts reveal part of the conduct. It is as if
that is sufficient to take behind the scenes, what it said would it would not take for
"a year." That is substantive due process deprivation, not merely procedural due
process deprivation. Both are deprived, in two distinct steps (March 22, 2017 &
again a week later, revealed as such August 7, 2017).
This case is the perfect vehicle to expand the purpose and intent in the
Michigan v. Long case to dissuade lawyers from using electronic rather than hardcopy methods of certification, correction, reversal, and schedules, which are only
produced on appeal by the lawyers once they are caught. The price of that proof is
an appeal, that Petitioner could not even begin because Respondent told her and the
chief circuit court judge told Petitioner in court, that it would not happen for "a
year." This is why the bifurcated debt that forced both the bankruptcy and the
foreclosure was in one way a good thing: it revealed what would not be revealed to
the public if not bifurcated.
This case, therefore provides insight into how due process is not just used to
both block appeal, but to also prove it was provided to block the monetary relief for
having given it. It seems strange that no one in Michigan has noticed the
homestead exists in these matters, yet Ohio is familiar with the Latin maxim and
its application to the homestead exemption when discretion is available as is the
case in Michigan in use of 211.78k(4) for "a year" pre-foreclosure.
The reason could be that those who fight these cases such as Rafaeli, LLC,
have money. So they can afford to do what it takes to win. The poor litigant is not
positioned to do that.
Another reason to grant the Petition is that it is now that the federal eviction
moratorium and what will probably be more foreclosures resulting from that. Then
bankruptcies galore from both that will eventually flood the courts. Setting clear
standards by this Court now, to not do what Respondents did, may go a long way to
preventing future conduct like this — especially those less experienced lawyers than
in these Respondents, who know well what they are doing. To give a fair warning
that Ohio state courts are onto something wise and lawful: discretionary

1

I

foreclosures that consider the holistic result. The law does not require one to do vain
things. Is that not the essence of Knick? Monroe, before that? And why 12(b)(c)
motions filed in that vein are also "vain" in that they purport to block subjectmatter jurisdiction, improperly. By this, Petitioner means that when there is a
repose it functions as no barrier to federal claims; because the "clean slate" postrepose, puts the defendants on notice that their actions post-repose have federal
consequences, if done independently of any pre-repose conduct. Choosing to add codefendants was their own doing. They were able to "stop the bleeding" if they acted
alone.
Instead, they acted in concert, when the repose debarred their claims. In a
federal NSP contract, without a recorded deed, was a void unfilled by Respondents
until September 9, 2019 — too late to matter and too soon to comply with the 90-day
NSP regulation to determine abandonment and then provide notice when not
abandoned. ERE skipped that.
ERE and Patel left themselves no excuses. Their own admissions and
exhibits are not in dispute. Hammond was a missed Sixth Circuit pre-Knick
opportunity, in that that case with some of these same Respondents, as described in
the Complaint and its attachments to that case. Its plaintiffs had Monroe v. Pape
(1961) even more clearly, than Petitioner did. Those invasions were coordinated
with the police department and the mayors to stand down and that was in writing
no less. So is the U.S. Constitution for that matter.
Yet, that case failed to seize that pre-Knick authority, of Monroe v. Pape
(1961) to dissuade ERE and Patel and the Wayne County Treasurer and the
lawyers, in both cases here, and there; from breaking into houses they know are
occupied based on the very 100% Exemption, rooted in the 100% Primary Residency
Exemption schedules, which Wayne County Treasurer provides to the cities using
the federal NSP program, so that the developers and city know which are owned
and which are rented by that percentage.
Knowing that, they broke in anyway. They did it to Petitioner's home and
admitted it, on August 29, 2019. In petitioner's case what differs from Hammond,
was that instead of federal R.I.C.O charges, the federal contract between the city
and the developer from Hammond, here again in this matter, was obstructing
justice to interfere with pending Sixth Circuit Case No. 19-1290, when Knick
preempted its state court counterpart post-repose. That is a search and seizure on
top of a taking on August 29, 2019. The preexisting federal CDBG mortgage
required no money but required occupancy. Ending occupancy would end litigation.

It did not. The civil rights complaint, anchored on that date of August 29, 2019,
were independent claims, that were not related to the past. But, the same postrepose debt from six years earlier (2013) was in the amount paid by ERE, as a
nexus to the other Respondents, nevertheless a bad-faith continuum of wrongs
against the public at large since mid decade.
This is not an exhaustive set of reasons to grant the Petition for Certiorari,
however, is concrete enough to show the misused federal law is imp actful across the
country and not just in Michigan. Even well-intentioned precedents which
potentially throw open the court room doors vie with a COVID-19 pandemic that
pushes them shut and the back and forth is unwanted cases like mine dismissed
erroneously and never reaching the meritorious claims therein only to have no place
to go and having gone to federal court in vain. Timing in this case to the new cases
that push the doors open are not having the desired effect unless this Court opens
them more forecefully than is perceived in the appealed Order.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitte

Date•

9-0

